.

IN THE

supreme Court, U.S.

SUPREME COURT OF THE UNITED STATES

FEB 1 9 2021

WASHINGTON, D.C.

FILED

OFFICE OF THE CLERK

OBIDIAH McCASKILL, JR - PETITIONER
vs.
MARK S. INCH, SECRETARY
FLORIDA DEPT. OR CORRECTIONS - RESPONDENT(S)
ON PETITION FOR A WRIT OF CERTIORARI TO

THE DISTRICT COURT OF APPEAL FIRST DISTRICT OF FLORIDA
PETITION FOR WRIT OF CERTIORARI

OBADIAH MCCASKILL, JR.
MADISON CORRECTIONAL INSTITUTIONAL
MADISON, FL. 32340

j

.

QUESTION(S) PRESENTED
Petitioner, Obidiah McCaskill, Jr. request review of Florida Statutes and
case law that have deprived Petitioner of his liberty and been deprived of a fair
hearing which violates Petitioner’s 14th Amendment . The Supervised Release
Statutes is Unconstitutional because it violates the right to trial under the Fifth and
Sixth Amendment. 1988 Supplement to Florida Statutes 1987 clearly states S.
775.084 4(d)(e) see npp£/jJit}uE” F.S. 775.084 1988 Supplement to Florida Statutes
1987. There is also a conflict in Florida Statutes 944.275(2)(c) (1995) and
944.275(2)(c) 1988 Supplement to Florida Statutes 1987 they both have different
language. That is a conflict in statutes. The Trial court failed to consider the issues
that was raised in which the trial court erred in failing to address. The trial court
was required to address the issues that was brought before them, Florida’s
Conditional Release Supervision Release Statutes is unconstitutional See Hayman
v. United States Court of Appeals for the Tenth Circuit, 869 F.3d 1153; 2017 U.S.
App. Lexis 16747 Petitioner has been denied due process in which he is guaranteed
by the Constitution. See Statement of Case for Support.

JURISDICTION
[ ] For cases from federal courts:

The date on which the United States Court of Appeals decided my case was
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of appeals
oil the following date: ___________
, and a copy of the order
denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted to
and including______
(date) on
(date)
in the Application No.
A
The jurisdiction of this Court is invoked under 28 U.S.C. § 1254(1).

Di,fFor cases from state courts:
The date on which the highest state court decided my case wasSumcm CtafhfP^ete.
A copy of that decision appears at Appendix l'X-' .
’
[ ] A timely petition for rehearing was thereafter denied on the following date:
________________________ , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted to
and including _
(date) on
(date) in
Application No.
A
The jurisdiction of this Court is invoked under 28 U.S.C. § 1257(a).

I

TABLE OF CONTENTS
PAGE
JURISDICTION

1

OPINION BELOW

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE .

3.4
7

REASONS FOR GRANTING THE WRIT

10,

CONCLUSION

13

INDEX TO APPENDICES
APPENDIX A

LOWER COURT DENIAL

APPENDIX B

PETITION for Writ of Certiorari

APPENDIX C

First District Court of Appeal Opinion

APPENDIX D

Motion for Rehearing and DCA Denial

APPENDIX E

F.S. 775.084 1988 Supplement to Florida Statutes 1987

APPENDIX F

Gain-Time Sheet

APPENDIX G

Sentence Sheet

APPENDIX H

Sentence Transcript

APPENDIX I

Supreme Court of Florida Dismissal

X

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
CONSTITUTIONAL PROVISIONS
PAGE
14th Amendment Due Process

6, 10

Supremacy Clause Article 6 Clause 2

.

11

Fifth and Sixth Amendment

6

18 U.S.C.S § 3583(e)(3), (k)

8,9

United States v. Haymen, 139 S.Ct. 2369 (2019)

6,8

STATUTORY PROVISIONS INVOLVED
1. Fleming v. State, 697 So.2d 1322 (Fla. 5th DCA (1997)....................

7

2. 1988 Supplement to Florida Statutes 1987 F.S. 775.084(4)(d); (4)(e)

11

3. F.S. 944.275(2)(c) (1995)....................................................................

9

4. F.S. 944.275(2)(c) 1988 Supplement to Florida Statutes 1987...........

9

5. F.S. 947. 1988 Supplement to Florida Statutes 1987..........................

11

6. F.S. § 775.08; (2) (1988)....................................................

9

7. F.S. 921.001 1988 Supplement to Florida Statutes 1987....

11

8. Crockett v. State, 206 So.3d 742, 745 (Fla. 1st DCA 2016)

10

9. Niles v. State, 1290 So.3d 658 663 (Fla. 1st DCA 2013)....

10

10. Brown v. State, 124 So.2d 481, 484 (Fla. 1960).................

10

3

1 l.Knarich v. State, 932 So.2d 257 (Fla. 2nd DCA 2005)

12

OTHER
Florida Sentencing Edition 2017; 2D18 § 1:91

V

12

LIST OF ALL PARTIES
Mark S. Inch, Secretary Florida Dept, of Corrections
Attorney General’s Office

HISTORY OF ALL COURTS
1. Order denying Petition for Writ of Habeas Corpus on October 30, 2019,
based on Fleming v. State, 697 So.2d 1322 (Fla-S* DCA (1997).
2. Petition for Writ of Certiorari Per Curiam September 15, 2020, First District
Court of Appeal.
3. Motion For Rehearing or Written Opinion denied October 5, 2020.
4. Emergency Petition For Writ of Habeas Corpus dismissed Supreme Court of
Florida, January 6, 2021.

iT

STATEMENT OF CASE
The lower Court denied Petitioner Emergency Petition for Writ of Habeas
Corpus on 10-30-19 tipped i % “A”, stated that Petitioner has not demonstrated that
he is not entitled to immediate release based on Fleming v. State, 697 So.2d 1322
(Fla. 5th DCA 1997) (Holding that the Appellant was not entitled to credit for time
' served while on Conditional Release Supervision. Petitioner appeal was stricken
and was ordered to file Writ of Certiorari. Petitioner filed Writ of Certiorari to the
District Court of Appeal First District of Florida on 12-13-19 bpp&ajix “B”. On
February 10, 2020 District Court of Appeal, First District issued Respondent a
Show Cause why the Petitioner for Writ of Certiorari should not be granted.
Petitioner Reply to Respondent’s response for Writ of Certiorari on February 24,
2020. On September 15, 2020 the First District Court of Appeal rendered a
decision Per Curiam Petitioner’s Writ of Certiorari in denying on the merits, in
which there is no opinion to determine the merits in this case because Petitioner
merits was over looked PtppM'X “C”. The merits that was set forth the lower court
was not in accordance to the statutes in which the lower court relied on, is in
conflict with it’s own statutes. That lead to a fundamental error by the lower court
which makes that decision a reversible error because Florida Commission on
Offender

Review

Conditional

Release

Supervision

Release

Statute

is

unconstitutional. Based on the fact Petitioner was denied due process, Petitioner
filed for rehearing on 9-24-20 see

D” and denied on 10-5-20.

The District Court of Appeal, First District abuses its discretion when it
relies on an incorrect conclusion of law or a clearly erroneous finding of fact. A
finding of fact is clearly erroneous if it is without factual support in the record or if,
after reviewing all of the evidence, the Appellant Court is left with the definite and
firm conviction that a mistake has been made, see United States v. Hayrnan, 139
S.Ct. 2369 (2019) where in the may modify or revoke the term or conditions of
supervised release. 18 U.S.C.S. § 3583(e). Most revocations are governed by §
3583(e)(3), which provides that the court, if it finds by a preponderance of the
evidence that the Defendant violated a condition of Supervised Release, may
revoke a term of Supervised Released authorized by statute for the offense that
resulted in such term of Supervised Released without credit for time previously
served on Post-Release Supervision except that a defendant whose term is revoked
under this paragraph may not be required to serve on any such revocation more
than five years in prison if the offense that resulted in the term of Supervised
Release is a Class a felony, more than three years in prison if such offense is it
Class B felony, more than two years in prison if such offense is a Class C or D
felony, or more than one year in any other case. § 3583(e)(3). Again, the maximum
terms of reimprisonment authorized by the statutes for violations of the conditions

of Supervised Released are limited based on the severity of the defendant’s
original crime of conviction, not the conduct that resulted in the revocation §
3583(e)(3). Petitioner denied all violations in that he did not drive his vehicle while
under the influence nor did he drive himself out of the county without permission.
A DUI is a civil infraction that does not give rise to be violated see F.S. 775.08(2)
(1988) states term “misdemeanor” shall not mean a conviction for any noncriminal traffic violation of an provision of Chapter 316 or any municipal of
county ordinance. The term “non-criminal violation” shall mean any offense that is
punishable under the laws of (Florida) this state, or that would be punishable if
committed in this state, by no other penalty than a fine, forfeiture, or other civil
penalty. Furthermore, 18 U.S.C.S. § 3583(k) is unconstitutional because it
increases the mandatory minimum penalty to which a defendant may be subjected,
and does so based on facts not found by the jury. According to Apprendi and
Alleyne, any fact that, by law, increases the penalty for a crime is an element that
must be submitted to the jury and found beyond a reasonable doubt. This includes
any fact that increases either the mandatory minimum or the statutory maximum.
In this case petitioner’s crime was committed October 22, 1988 and in accordance
to 1988 supplement to Florida Statutes 944.275(2)(c) is in conflict with
944.275(2)(C) 1995 they both carry different language one say you can’t take all
gain-time and the other one say that they can which amounts to a conflict.

REASON FOR GRANTING THE PETITION
The lower court’s order is erroneous and requires reversal. Generally the
determination of whether a defendant’s constitutional right has been violated
presents a mixed question of law and fact. Crockett v. State, 206 So.3d 742, 745
(Fla. 1st DCA 2016) (quoting, Niles v. State, 1290 So.3d 658, 663 (Fla. 1st DCA
2013). “We review the trial court’s factual findings under the competent
Substantial Evidence Review and it legal conclusions de novo.” Id. Additionally,
in F.B. v. State, 852 So.2d 226 (Fla. 2003), the court explained the doctrine of
fundamental error as follows: The sole exception to the contemporaneous object
applies where the error is fundamental, Id. we have stated that “in order to of such
fundamental nature as to justify a reversal in the absence of timely objection the
error must reach down into the validity of the trial itself, to the extent that a verdict
of guilty could not have been obtained without the assistance of the alleged error.”
Brown v. State, 124 So.2d 481, 484 (Fla. 1960) (holding that the alleged error “did
not permeate or saturate the trial with such basic invalidity as to lead to a reversal
regardless of a timely objection”). In this case we see the ruling of the First District
Court of Appeal in Crockett v. State and Nile v. State where they reviewed the trial
court’s factual findings under competent substantial evidence. The First DCA per
curiam opinion denies petitioner of a fair hearing in which violates petitioner 14th
Amendment. Based on the facts in accordance to provision of 775.084 set the

JO

precedent of the guideline to Petitioner’s sentence that are set forth. See F.S. §
775.08(4)(a) based on the term of years, F.S. § 775.084 1988 supplement t Florida
Statutes 1987 (4)(d) states that a sentence imposed under this section shall not be
increased after such imposition, in (4)(e) states that a sentence imposed under this
section shall not be subject to the provisions of S. 921.001, The Provisions of
Chapter 947 shall not be applied to such person. A defendant sentence under this
section shall not be eligible for gain time granted by the Department of Corrections
y

except that the Department may grant up to 20 days of incentive gain-time each
month as provided for in § 944.275(4)(b) See Ap^MA “E” S. 775.084 1988
supplement to Florida Statutes 1987, and
Date is beyond 30 years, also

“F” shows Tentative Release

“G” sentence sheet that shows the sentence

of law, and the special provisions. The lower court ignored all issues that Petitioner
raised (1) respondent cannot implement rules and statutes wherein it causes them
to violate Ex Post Facto Law that states any laws, statutes, rules implemented by
any state, commonwealth, territory, or possession of the United States, that goes
against, abridges the laws of the United States Constitution and/or Congress, the
laws of the Executive Legislature and Supremacy Clause of Article 6 Clause 2
“Shall be deemed” Ex Post Facto Laws” that do violates Petitioner’s civil and
constitutional rights. Respondent’s actions has cause a Manifest Injustice wherein

//

the validity and construction of any person who Interfere with the true
administration of justice actually create a Manifest Injustice.
Petitioner’s gain-time sheet shows that Petitioner Tentative Release Date is
2-5-2023 which is wrong Respondent added four years to petitioner’s sentence
when Petitioner had less than 36 months left on his 30 year sentence See
‘‘^"’ Gain-time sheet. See bpp&jdi'X “M” sentencing transcript showing the oral
pronouncement of sentence. Petitioner argue that Respondent violates the single
subject ruling Section 6 laws in that “every law shall embrace but one subject shall
briefly express in the title.” “No law shall be revised or amended by reference to its
title only, laws to revise or amend shall set out in full the revised or amended act,
section, sub section, or paragraph of a subject.” The enacting clause of every law
shall read: Be it enacted by the Legislature of the State of Florida, in which there is
no enacting clause to authorize Respondent to increase Petitioner sentence. Based
upon Florida Sentencing Edition 2017 and 2D 18 §1:91 pronouncement of a
sentence states that the pronouncement by the court of the penalty imposed upon
the Defendant, that is the sentence, does not occur until the pronouncement is final.
The pronouncement is final, at the earliest, when the sentencing hearing comes to
an end. At least until that moment arrives, the trial court has jurisdiction to modify,
vacate, correct, and change, amend, alter, or vary, increase or decrease, any earlier,
in effect inchoate pronouncement. See Knarich v. State, 932 So.2d 257 (2nd DCA

/l

2005) Time of offense if the court is trying to compare a 1983 offense to a crime
that was proscribed in Florida Law in 1983. The description of that crime is located
in that version of the Florida Statutes that proscribe conduct occurring in 1983. The
District Court abuses its discretion when it relies on an incorrect conclusion of law
is clearly a erroneous finding of fact.
CONCLUSION
Based on the above argument and citation to the authority set forth Petitioner
request that this Honorable Court grant Emergency Writ of Habeas Corpus to
prevent this continued manifest injustice.

Date

/3

Appendix - A

Appendix - A

Appendix - A

